 




    OFFICE OF THE
    SECRETARY


    Top Management
    Challenges Facing
    the Department
    of Commerce




    FINAL REPORT NO. OIG-12-003
    OCTOBER 24, 2011



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation

    FOR PUBLIC RELEASE




 
                                                                 UNITED STATES DEPARTMENT OF COMMERCE
                                                                 The Inspector General
                                                                 Washington, D.C. 20230




October 24, 20 I I

MEMORANDUM TO THE SECRETARY




FROM:
                 ~"""'13~
                   J.
                Todd    Zinser

SUBJECT:        Top Management Challenges Facing the Department of Commerce
                in Fiscal Year 2012

Enclosed is our final report on the Department of Commerce's top management challenges for
fiscal year (FY) 2012. The Department plays a pivotal role in implementing the President's
initiatives for economic recovery and job creation and plans to spend about $10 billion on a
wide range of programs in the upcoming year. The report identifies what we consider, from our
oversight perspective, to be the most significant management and performance issues facing the
Department.

The five major challenges we have identified for FY 2012 represent cross-cutting issues that
focus on the President's most important goals. The first two challenges in the report are new
additions: challenge I discusses the Department's mission to promote the export ofAmerican
goods, stimulate economic growth, and create jobs while simultaneously enforcing trade laws and
protecting U.S. trade interests; and challenge 2 explains the Department's need to reduce operating
costs in the face of an extended period of constrained federal budgets. The remaining three
challenges are longstanding departmental concerns: enhancing IT security across the Department,
improving Commerce-wide acquisitions and contracting practices, and ensuring NOAA meets its
milestones to develop and launch its new environmental satellites while minimizing expected data gaps.
Under the leadership of former Secretary Locke and Acting Secretary Blank, the Department
has a solid foundation upon which to make continued improvements when addressing these
challenges.

Former Secretary Locke's legacy included adopting a balanced scorecard management approach
focusing on themes that reflect the Department's priorities. This approach gives a greater
emphasis to Commerce's three programmatic themes of Economic Growth, Science and
Information, and Environmental Stewardship as well as its management themes of Customer
Service, Organizational Excellence, and Workforce Excellence (see diagram, on next page).
Since the beginning of FY 20 I I, the Deputy Secretary has met each quarter with operating unit
heads to review the scorecard, which tracks performance and measures progress. This
management approach has helped to institutionalize the Department's efforts in working
    toward cross-cutting performance goals and to better position the Department to respond
    promptly and suitably to challenges as they emerge. We would recommend that you continue
    to exercise these capabilities consistent with your goals and objectives in leading the
    Department.


                           Cascading the Balanced Scorecard
                    Department                                     BALANCED SCORECARD
             Agency Scorecard
            Outcome Measures                                                 Themes
                Strategies
                                                                        Economic Growth
          HOW?
                               Bureau

              ~
                                               WHY?
                                                                     Science and Technology
                            Bureau Scorecard
                            Output Measures \                      Environmental Stewardship
                           Strategic Initiatives
                                                                        Customer Service
                 HOW?



                     ~
                                      Program          WHY?         Organizational Excellence
                                   Program Scorecard
                                    Activitj Measures                 Workforce Excellence
                                      Action Plans
        Source: OIG, based on the Department's balanced scorecard overview

We remain committed to keeping the Department's decision makers informed of longstanding
as well as emerging problems identified through our audits and investigations so that timely
corrective actions can be taken. This final report a d the Department's response to it (which
appears as an appendix) will be included in the Department's Performance and Accountability
Report, as required by law.'

We appreciate the cooperation received from the Department, and we look forward to
working with you and the Secretarial Officers in the coming months. If you have any questions
concerning this report, please contact me at (202) 482-4661.

cc:        Rebecca Blank, Acting Deputy Secretary
           Cameron Kerry, General Counsel
           Bruce Andrews, Chief of Staff
           Scott Quehl, CFO/ASA
           Simon Szykman, Chief Information Officer
           Operating Unit Heads
           Operating Unit Audit Liaisons




I   31 U.s.c. § 3516(d).
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                   OFFICE OF INSPECTOR GENERAL


Contents
Challenge 1: Effectively Promote Exports, Stimulate Economic Growth, and
Create Jobs ......................................................................................................................... 1 
   Implement Administration Initiatives with Effective Interagency Partnerships ................................................................ 1 
   Enhance Commerce Unit Operations to Help Promote Trade and Job Creation ......................................................... 2 
   Correct Unfair Trade Practices and Protect Our National Security Through Enforcement Activities ..................... 5 
   Improve Regulatory Reviews to Protect and Promote Public Interests ........................................................................... 6 
Challenge 2: Reduce Costs and Improve Operations to Optimize Resources for a
Decade of Constrained Budgets....................................................................................... 7 
   Implement and Expand Initiatives to Improve Operational Efficiency and Economy ..................................................... 8 
   Strengthen Oversight of Improper Payments for Additional Recoveries ......................................................................... 9 
   Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees .............................................. 10 
   Continue Oversight of the Broadband Technology Opportunities Program ................................................................ 11 
   Apply Lessons Learned from 2010 Decennial to Planning for the 2020 Census to Avoid Cost Overruns ............ 11 
   Protect Against Cost Overruns and Schedule Slippages for Headquarters Renovation ............................................. 12 
Challenge 3: Strengthen Department-Wide Information Security to Protect
Critical Information Systems and Data ........................................................................ 14 
   Continue Working to Improve IT Security by Addressing Ongoing Security Weaknesses ....................................... 14 
   Implement Security Policy Effectively Through Consistent, Proactive Management .................................................... 16 
Challenge 4: Manage Acquisition and Contract Operations More Effectively to
Obtain Quality Goods and Services in a Manner Most Beneficial to Taxpayers ...... 18 
   Develop and Retain a Qualified Acquisition Workforce .................................................................................................... 19 
   Ensure High Ethical Standards in the Acquisition Workforce and in Procurement Practices.................................... 19 
   Strengthen Processes to Govern the Appropriate Use of High-Risk Contracts and to Maximize Competition .. 20 
   Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve Oversight and Tracking of
   Contract Savings ......................................................................................................................................................................... 21 
   Deliver Cost Savings and Efficiency on Major IT Investments........................................................................................... 22 
Challenge 5: Manage the Development and Acquisition of NOAA’s Environmental
Satellite Systems to Avoid Launch Delays and Coverage Gaps ................................. 23 
   Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP .................................................... 24 
   Ensure Solid Program Management and Systems Engineering Principles Are Applied to Mitigate JPSS
   Coverage Gaps ............................................................................................................................................................................ 25 
   Maintain Robust Program Management and Systems Engineering Disciplines to Prevent Geostationary
   Coverage Gaps ............................................................................................................................................................................ 27 
Acronym List .................................................................................................................... 29 
Appendix A: Related OIG Publications ......................................................................... 30 
Appendix B: Comparison of FY 2011 Challenges to FY 2012..................................... 34 
Appendix C: Management Response to OIG Draft Report ........................................ 35 


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES
   DEPARTMENT OF COMMERCE
 U.S.                                                                                                                   OFFICE OF INSPECTOR GENERAL


  Challenge 1:
  Effectively Promote Exports, Stimulate Economic Growth, and Create Jobs
  The Department is at the center of the federal government’s efforts to promote exports and
  stimulate economic development, while at the same time regulating exports. The Secretary
  plays a visible role in carrying out the Department’s trade promotion mission, with export- and
  trade-related activities—such as leading trade missions and representing the United States in
  bilateral or multilateral meetings—accounting for a significant portion of the Secretary’s time.
  The President also tasked Commerce with leading the government-wide SelectUSA initiative by
  attracting and retaining domestic and foreign investments. We estimated that Commerce
  planned to devote approximately $994 million (11 percent) of its FY 2011 budget request to
  fund direct international programs and activities, most of which is represented by the budgets
  of the International Trade Administration (ITA) and the Bureau of Industry and Security (BIS).

  Implement Administration Initiatives with Effective Interagency Partnerships

  Many federal agency missions are related to international trade. We reviewed their missions
  and found more than 20 performed trade-related functions, such as policy development and
  negotiation, export promotion, financing, and licensing and regulation (table 1).

  Table 1. U.S. Government Agencies with Trade-Related Functions
                                                                  Member of                                                    Function
                                                                            Trade                Policy                                 Finance,
                                                          Export                                                                                            Licensing,
                                                                          Promotion           Development,          Export         Insurance, Grants
Agency                                                  Promotion                                                                                          Inspection &
                                                                         Coordinating         Negotiation &       Promotion a        & Adjustment
                                                         Cabinet                                                                                            Regulation
                                                                         Committee            Cooperation                              Assistance
Council of Economic Advisors
Department of Agriculture
Department of Commerce
Department of Defense
Department of Energy
Department of Homeland Security
Department of the Interior
Department of Labor
Department of State
Department of Transportation
Department of the Treasury
Environmental Protection Agency
Export-Import Bank
Food and Drug Administration
National Economic Council
National Security Council
Office of Management and Budget
Office of the U.S. Trade Representative
Overseas Private Investment Corporation
Small Business Administration
U.S. Agency for International Development
U.S. International Trade Commission
U.S. Trade Development Agency
Source: OIG analysis of government agency information
a Export Promotion includes export counseling and assistance, providing trade leads and market research, conducting feasibility studies, and advocating for U.S. businesses.




  OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                                                   1
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL

The Department has a critical part in the success of the administration’s three government-
wide initiatives: promote U.S. exports, reform the export control system, and reorganize the
federal government’s trade promotion responsibilities. The following efforts require the
Secretary to work effectively with interagency partners and to marshal and integrate
Commerce resources:

       •      Increase Collaboration Among Partner Agencies to Implement the National
              Export Initiative. In March 2010, the President formalized a government-wide
              strategy called the National Export Initiative (NEI), which aims to double U.S. exports by
              2014 by enhancing the private sector’s ability to export goods and services. The NEI is
              led by a secretarial-level body called the Export Promotion Cabinet that is charged with
              implementing the initiative’s trade-related activities in coordination with the Trade
              Promotion Coordinating Committee (TPCC; see member agencies in table 1), 2 which is
              chaired by the Secretary. Historically, collaboration among TPCC agencies on specific
              trade promotion has not been strong, and the TPCC has not developed any working
              groups to improve coordination among its members. Despite these limitations the
              Department reports that, as of August 2011, the efforts of these organizations have
              resulted in a 17 percent increase in exports since 2009. 3

       •      Work with Partner Agencies to Implement the Export Control Reform
              Initiative. The Department, along with the Departments of Defense and State, is a
              central part of implementing the Export Control Reform Initiative. This initiative
              envisions more effective export administration and enforcement by consolidating agency
              efforts and using a single IT system and list of controlled goods and technologies with
              military and commercial applications. Through this approach, the government would
              create a single source to help businesses obtain the information they need to export
              sensitive goods and technology. To date, the Department has succeeded in revising
              some of its export control regulations and is helping establish an export enforcement
              coordination center.

       •      Support Reorganization of U.S. Government Trade and Export Promotion
              Functions. The Office of Management and Budget (OMB) is leading an effort to reduce
              overlap in government trade-related responsibilities and identify potential cost savings,
              thereby improving agencies’ efficiency and effectiveness. As noted in table 1 and later in
              table 2, trade functions and responsibilities are spread across multiple federal agencies—
              and even within the Department’s own operating units. Although the plan is not yet
              public, it is likely that the reorganization will affect the Department significantly;
              Commerce should be prepared for the possibility of major program changes.

Enhance Commerce Unit Operations to Help Promote Trade and Job Creation

At the same time as it is involved in these government-wide efforts, the Department must
continue to enhance its own mission to promote U.S. economic growth and associated job
                                                            
2
  The TPCC was established in 1993 by Executive Order 12870 under the authority of the Export Enhancement
Act of 1992 to coordinate governmental efforts to promote U.S. exports.
3
  OIG has not verified the accuracy of this claim.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                          2
  DEPARTMENT OF COMMERCE
U.S.                                                                                               OFFICE OF INSPECTOR GENERAL

 gains. Our office analyzed the Department’s trade-related responsibilities. The results of our
 analysis are displayed in table 2, which outlines Commerce’s international functions and the
 missions of responsible operating units.

 Table 2. International Function by Commerce Operating Unit a
                                                                                      Commerce Operating Unit
International Function                                          ITA   USPTO      NIST    EDA     ESA      BIS    MBDA       NOAA       NTIA
Represent the nation in international forums
Formulate policy and negotiate agreements
Manage international cooperation and exchanges
Promote U.S. exports and commercial advocacy
Promote U.S. international competitiveness
Promote U.S. standards
Regulate trade and investment
Collect, analyze, and disseminate trade data
Protect U.S. intellectual property rights
Mitigate negative effects of international trade
Enforce international law and U.S. treaty obligations
Combat unfair trade practices
Source: OIG analysis, based on bureau information
a
  Commerce’s operating units are International Trade Administration (ITA), U.S. Patent and Trademark Office (USPTO), National Institute of
Standards and Technology (NIST), Economic Development Administration (EDA), Economics and Statistics Administration (ESA), Bureau of
Industry and Security (BIS), Minority Business Development Agency (MBDA), National Oceanic and Atmospheric Administration (NOAA), and
National Telecommunications and Information Administration (NTIA).


 The Department began improving coordination among its operating units by launching the
 “CommerceConnect” initiative in 2009 to help U.S. businesses be more competitive and create
 jobs by coordinating and providing a portfolio of government assistance to businesses via the
 Internet, a national call center, and field offices throughout the country. However, a more
 structured and broad-based approach is needed to adequately address Commerce-wide
 coordination efforts and address possible duplication of activities, as reported in a recent
 Government Accountability Office (GAO) study. 4 The Department also faces the following
 specific challenges to help promote trade and create jobs:

        •      Repatriate Manufacturing Jobs in America. Repatriation of jobs that have moved
               abroad will help create U.S. jobs and improve the economy. The House Appropriations
               Committee has recently proposed tasking the Secretary with establishing a Repatriation
               Task Force to examine incentives needed to encourage U.S. companies to bring
               manufacturing and research and development jobs back to the United States. The Senate
               Appropriations Committee also proposed giving the Department the task of developing
               a national manufacturing strategy. 5

        •      Appropriately Allocate Resources to Support the NEI. ITA is involved with both
               the NEI and the potential reorganization/consolidation of U.S. export promotion
                                                             
 4
   GAO. March 1, 2011. Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars, and
 Enhance Revenue, GAO-11-318SP. Washington, D.C.
 5
   See the pending House appropriations bill for FY 2012 (H.R. 2596) and Senate Report 112-78 accompanying the
 Senate appropriations bill for FY 2012 (S. 1572), as reported by the respective Appropriations Committees.


 OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                          3
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

              activities. As part of the NEI, ITA intends to promote U.S. exports by increasing the
              number of trade specialists, outreach, and guidance to small- and medium-sized
              businesses capable of entering new markets, as well as the number and size of trade
              missions. The bureau’s proposed FY 2012 budget provides additional funding to carry
              out NEI activities. With its increased workload, ITA must effectively manage its
              resources to meet the established goal of doubling U.S. exports by 2014 and must also
              fulfill congressional reporting requirements.

       •      Reduce the Patent Backlog, Improve Processing Times, and Effectively
              Implement Patent Reform. USPTO fosters innovation and protects inventors’
              intellectual property rights by registering trademarks and granting patents. Patents can
              help make initial investments in an invention worth the effort and expense; a granted
              patent can help investors secure capital, create or expand businesses, and create jobs.
              Over the past decade, the patent backlog has doubled, and the completion of patent
              reviews has increased from an average of 2 years to almost 3 years. Long waits for
              application decisions could negatively impact innovation, economic development, and job
              growth. USPTO continues to contend with the large number of patents awaiting review,
              making it imperative that USPTO maintain its focus and increase its efforts to address
              these challenges. 6

              USPTO also faces new administrative and operational challenges in implementing the
              recently enacted Leahy–Smith America Invents Act (Pub. L. No. 112-29). This act
              contains many changes to patent laws and USPTO practices, such as moving the United
              States to a “first-to-file” system, creating new proceedings for review of granted patents,
              allowing USPTO the authority to set fees, and imposing a 15 percent surcharge on all
              patent-related fees. These changes—many of which must be made between 10 days and
              12 months of the enactment—will require USPTO to issue new regulations, set new
              fees, modify current business processes, and conduct new studies and report on them
              to Congress.

       •      Improve Technical and Financial Assistance Programs to Promote Job
              Growth in the United States. The two departmental operating units that provide
              assistance to U.S. companies are NIST and EDA. NIST fosters trade through a variety of
              programs that support business innovation, promote research, and help companies
              improve their business processes. The $125 million-per-year Manufacturing Extension
              Partnership, for example, works with small and mid-sized U.S. manufacturers to help
              create and retain jobs, increase profits, and save time and money through a
              public/private partnership. In FY 2011, EDA provided approximately $250 million in
              grants and assistance programs that focus on helping businesses in disadvantaged and
              distressed communities and mitigating the negative impacts of trade. EDA grants
              enhance the export potential of U.S. businesses, and increase the competitiveness of

                                                            
6
  USPTO reports that the backlog of patent applications has decreased from 716,428 in October 2010 to 683,991
in August 2011 (www.uspto.gov/dashboards/patents/kpis/kpiBacklogDrilldown.kpixml).

 


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                              4
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

       regions across the country. Our office has identified needs to improve program and
       grant management in these areas.

   •   Ensure the Elimination of Important Surveys Does Not Adversely Affect the
       Formulation of Vital National Social or Economic Indicators. Composed of the
       U.S. Census Bureau and the Bureau of Economic Analysis (BEA), ESA is responsible for
       collecting and maintaining key statistics on the U.S economy, international trade, and
       investment. The constrained budget environment may result in an adverse impact on
       this critical mission. For example, the Department has proposed eliminating the Census
       Bureau’s 2012 Economic Census, which would affect the quality and production of
       major economic indicators such as BEA’s National Income and Product Accounts and
       Gross Domestic Product, and the Bureau of Labor Statistics’ Producer Price Index. The
       Department and Congress need to ensure that the elimination of these important
       surveys does not have an adverse effect on the formulation of vital national social or
       economic indicators.

The entire Department has to effectively and efficiently coordinate efforts and manage
resources to meet the goals of the various trade and export initiatives, avoid program
duplication, and maximize resources. Workforce planning, program improvements, and well-
defined missions can assist with meeting those goals. If all operating units do not successfully
manage their programs and coordinate efforts, valuable resources may be wasted, jeopardizing
Commerce’s ability to help U.S. companies increase exports and strengthen the national
economy.

Correct Unfair Trade Practices and Protect Our National Security Through Enforcement
Activities

While trade promotion is an essential part of the its mission, the Department must also
maintain strong trade enforcement programs so that the United States can thrive in the global
marketplace. Long-term, sustainable U.S. economic growth depends on the effective
enforcement of trade agreements and laws to ensure U.S. companies can compete fairly in the
international arena. ITA’s Import Administration works to counteract unfair trade practices by
U.S. trading partners, such as dumping and foreign subsidies, while its Market Access and
Compliance unit works to ensure compliance by these same trading partners with international
trade agreements and to resolve trade disputes.

Additionally, the Department facilitates trade in a manner that protects U.S. national interests.
This mission is carried out by BIS, which protects national security interests by regulating the
export of controlled goods and technology to prevent their acquisition by our country’s
adversaries. While each bureau vigorously carries out its respective missions, BIS faces the
greatest challenge as it contends with fundamental changes to the country’s export control
system.

BIS is currently helping to implement the long-term goals of the Export Control Reform
Initiative. In the near term, the initiative will result in the transfer of a significant number of
export-controlled items from the jurisdiction of the State Department’s Directorate of Defense


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                  5
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

Trade Controls to BIS. The bureau will need to ensure that its resources are adequate to
handle the increased workload. In addition, BIS will need to increase its outreach efforts to
educate exporters about changes in export control regulations and provide the necessary
guidance to ensure compliance with new regulations. Finally, with more goods and technology
shipped under its jurisdiction, BIS will need to increase its enforcement efforts to detect,
prosecute, and deter violations of the regulations. Effective administration and enforcement of
the revised dual-use export regulations will be critical. Otherwise, U.S. companies risk losing
export sales because of delays in processing license applications, and controlled goods and
technology may be shipped to unsuitable end users by exporters who willfully or unintentionally
violate the regulations.

Improve Regulatory Reviews to Protect and Promote Public Interests
The Department plays a vital role in regulating marine fisheries and protected resources
(NOAA), patents and trademarks (USPTO), and the import and export of goods (ITA and BIS).
In August 2011, the Department submitted its Plan for Retrospective Analysis of Existing Rules in
response to Executive Order 13563, Improving Regulation and Regulatory Review, issued January
18, 2011. In this order, the President stated:

       Our regulatory system must protect public health, welfare, safety, and our environment
       while promoting economic growth, innovation, competitiveness, and job creation. It
       must be based on the best available science….It must take into account benefits and
       costs…. It must measure, and seek to improve, the actual results of regulatory
       requirements.

Conducting adequate cost-benefit analyses and identifying meaningful performance measures for
regulatory activities are critical to avoid overburdening affected industries, as required by the
President’s Order. This is especially important for NOAA to consider. In recent years,
members of the fishing industry and congressional leaders from the New England region have
repeatedly questioned the costs and benefits of certain fishery regulations. Last year, we also
reported that balancing NOAA’s goals of protecting the environment and supporting the fishing
industry was one of the top management challenges facing the Department.

NOAA has committed to working with stakeholders and Congress to improve performance
metrics for its U.S. fishery management policies and to revisit previous cost-benefit analyses as
part of the retrospective regulatory analysis. USPTO, ITA, and BIS also plan to incorporate
cost-benefit analyses as part of their regulatory reviews. To implement the President’s Order,
the Department needs to ensure the quality of cost-benefit analyses conducted by these
regulatory operating units and appropriate actions taken to revise/update regulatory activities.




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                  6
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Challenge 2:
Reduce Costs and Improve Operations to Optimize Resources for a Decade of
Constrained Budgets
OMB has issued FY 2013 budget guidance directing federal agencies to provide scenarios with
their FY 2013 requests reflecting funding at levels 5 and 10 percent below their FY 2011
enacted budgets. At the same time, OMB encouraged agencies to develop programs supporting
economic growth. OMB has stated that it will be difficult, but possible, to find savings to
support these investments in growth; agencies have to cut or eliminate low-priority and
ineffective programs while consolidating duplicate ones, improve program efficiency by driving
down costs, and support fundamental program reforms that will generate the best outcomes
per dollar spent.

The pending House appropriations bill for FY 2012, as reported by the Committee on
Appropriations, would reduce the Department’s appropriations by 6 percent compared with FY
2011—and was almost 20 percent below the administration’s FY 2012 budget request. In
addition, the Joint Select Committee on Deficit Reduction is seeking $1.5 trillion in
government-wide savings over the next 10 years. The Committee could target additional cuts in
specific Commerce programs; if the Committee fails to agree on spending reductions, or the
Committee’s proposal is not enacted by January 15, 2012, across-the-board cuts will begin with
the FY 2013 budget. Some Commerce programs, both small and large, have already been deeply
affected by constrained budgets:

   •   The Department requested $22.6 million for two key IT security strategic initiatives
       intended to enhance system monitoring and detect and respond to cyber attacks.
       However, due to budget uncertainties, the Department is identifying alternative funding
       sources internally, and has to carefully prioritize the elements of both initiatives so that
       funds can be used to implement the most critical elements first. Information technology
       and cybersecurity are discussed in detail in challenge 3.
   •   Based on the current FY 2011 funding level, NOAA expects a potential coverage gap
       between its two new polar weather satellites—the National Polar-orbiting Operational
       Environmental Satellite System (NPOESS) Preparatory Project, scheduled for launch in
       October 2011, and the first Joint Polar Satellite System satellite, scheduled for launch in
       February 2017. According to NOAA’s studies, its weather forecasting at 5, 4, and 3 days
       before weather events could be significantly degraded during the coverage gap. We
       discuss NOAA’s ability to minimize the gap in severe weather forecasting in challenge 5.

As the Department prepares for an extended period of tighter budgets and decreased spending,
it is more important than ever to target waste, reduce inefficiency, and ensure that taxpayers’
dollars are being spent wisely. OIG has reviewed and recommended improvements in several
areas of the Department’s operations. Opportunities to save money and optimize efficiency lie
in such diverse areas as administrative operations; improper payments; program and grants
management; 2020 decennial census planning; and the ongoing renovation of the Department’s
Washington, D.C., headquarters.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                    7
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL


Implement and Expand Initiatives to Improve Operational Efficiency and Economy

In view of the constrained budget environment for FY 2012 and beyond, the Department has
already started looking for additional savings by
reforming the way it does business.
                                                   Table 3. Commerce’s Cost-Saving
Commerce has an initiative in place to save $143 Initiatives
million in administrative costs in FY 2011 and                                                    Savings
2012 (table 3). Savings will be realized in part   Initiatives                                     in FYs
through an $86 million reduction in facilities and                                              2011–2012a
information technology as well as human            Acquisition:
resources. For example, Commerce is one of                   Strategic Sourcing                    $ 25 million
more than 12 federal agencies that have received Acquisition:
approval to authorize voluntary early retirement             Contract Management                   $ 32 million
and separation incentives for employees who        Other Administrative Activities                 $ 86 million
volunteer to retire from federal service. The
                                                                                                   $143 million
Department has also committed to close 22 of       Total Savings
                                                                                                  =========
its 56 data centers by December 31, 2012, as       Source: Department of Commerce
part of the federal government’s long-term plan    a Although some of the initiatives began in FY 2011, the

                                                   total administrative savings are estimated for FY 2012.
to lower operating costs by consolidating data
centers. 7

The remaining $57 million in savings will be derived from changes in the Department’s
acquisition activities. As we discuss in challenge 4, the Department needs to handle acquisitions
more effectively and efficiently; it can do so in part by reducing the use of high-risk acquisition
contracts. The Department reported it has already saved about $4 million by focusing on
strategic sourcing for six services: cellular service, office supplies, personal computers and
accessories, print management and energy, small package delivery, and support services. But
relentless management attention and active oversight of reported savings are critical to
achieving the Department’s goal.

The Department demonstrated leadership in taking these cost-saving initiatives; however, the
budget environment will require that Commerce continue to search for similar opportunities to
optimize efficiency and cut operational costs. For example, in our audit of the Department’s
motor pool operations, we found that Commerce needed more effective oversight of its
vehicle inventory, records, and cost; over 730 fleet credit cards—with transactions totaling
over $1 million—could not be matched to a motor pool vehicle. Our recommendations to
improve the inventory and use fraud monitoring tools to prevent or detect credit card abuses
will improve the economy and efficiency of motor pool operations. In addition, the Census
Bureau, in an effort to reduce costs and improve the quality of the hundreds of surveys it
executes annually, plans to realign its 12 regional offices into 6. An annual cost saving of $15–18
million is projected once this realignment is complete.



                                                            
7
    Department of Commerce. September 28, 2011. 2011 Data Consolidation Center Plan and Progress Report (draft).


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                 8
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Strengthen Oversight of Improper Payments for Additional Recoveries

The Department can increase efforts to implement the Improper Payments Elimination and
Recovery Act of 2010 (IPERA) and increase the dollars it recovers from improper payments.
The law defines improper payments as payments that either should not have been made or that
were made to ineligible recipients or for ineligible goods and services. Our 2011 report on
improper payments highlighted the opportunity to test payments for almost $6 billion in FY
2010 grants. Commerce can recover more improper payments by testing more types of
payments, lowering its dollar limit for testing payments, beginning testing sooner, and following
the guidance of OMB and IPERA to determine which programs may have the most risk of losses
due to improper payments.

IPERA expanded the criteria for determining whether a program may be susceptible to
improper payments, lowered the review threshold for programs and activities from $500
million to $1 million in payments, and expanded the types of programs required to conduct
recovery audits, if cost-effective, to include any contract, grant, or cooperative agreement.
OMB also has lower dollar thresholds for testing potential improper payments. For example,
according to OMB’s updated criteria, single payments of more than $5,000 to an individual or
$25,000 to an entity can be tested for high-risk programs. By lowering the threshold for testing,
agencies have a better chance of detecting and recovering improper payments. Currently, the
Department only tests single payments greater than $100,000. While focusing on a few high-
dollar payments addresses the very highest risk, the Department does not have an adequate
assessment of the total improper payments.

Since FY 2006, OMB guidance on improper payment testing has encouraged, but not required,
that grants be included in recovery audits, which are post-payment reviews designed to identify
improper payments and return the payments to the Treasury. The Department, however,
excludes from these reviews grants, travel payments, bank and purchase cards, procurements
with other federal agencies, and procurements with non-federal entities unless the associated
contracts have expired. Because the Department did not elect to include grants in its recovery
audits from FYs 2006–2010, annual amounts of $1–6 billion were not tested. For these fiscal
years, Commerce identified and reported only one contract recovery—for less than
$100,000—from a recovery audit. We have recommended that the Department include grant
funds in future audits, increasing the chance that significant erroneous payments will be found,
reported, and recovered. In response, the Department, beginning in FY 2011, has expanded its
payment recapture audits to include grants and other cooperative agreements. An independent
contractor is currently performing a Department-wide payment recapture audit of closed
grants and other cooperative agreements. The Department should also consider including
ongoing grant and procurement activities in its review to ensure timely recovery of any
improper payments made. Deferring improper payment reviews until contracts have been
closed—years after payments have been made—undercuts IPERA’s requirement to give priority
to the most recent payments.




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                              9
  DEPARTMENT OF COMMERCE
U.S.                                                                                                               OFFICE OF INSPECTOR GENERAL


Reduce the Risk of Misuse, Abuse, or Waste of Federal Funds Awarded to Grantees

The Department’s annual grant obligations increased from approximately $2 billion in FY 2006
to almost $6 billion in FY 2010, as shown below in figure 1 (the additional $4 billion was due to
Recovery Act funds). As of June 2011, the Department reported about $10 billion accumulative
outstanding obligations, more than half of which were for grants. Strong oversight and program
management are needed to ensure responsible spending and timely de-obligation of unneeded
funds.

Shrinking grant management budgets will in turn challenge pre- and post-award grant processes.
Pre-award application processes need to target for funding only the most highly qualified
applicants performing mission-critical functions. Post-award processes have to focus on
obtaining the maximum benefit for taxpayer dollars through program office oversight of grant
recipients’ performance, compliance with program rules, and reporting, as well as ensuring the
financial integrity of programs by overseeing expenditures, matching share, and indirect costs.


                                                 Figure 1. Grant Awards, 2006–2010a

                                     6 
                                                                                                                                   EDA
             Dollars (in billions)




                                     5                                                                                             NIST
                                     4                                                                                             NOAA
                                     3                                                                                             NTIA
                                     2 
                                     1 
                                     ‐
                                               2006           2007           2008            2009           2010
                                          Source: Commerce Office of Acquisition Management, Grants
                                          a Office of Secretary, Minority Business Development Agency, and International Trade

                                          Administration totals were below $75M and are too small to display on the scale of this graph.




The diversity and duration of Commerce grant programs (grants can have a performance
period of 3 years or more) also highlight the Department’s need to examine options such as
the following to standardize and streamline its management processes:

   •   Better use of OIG audits and single audit reports (which are performed by independent
       audit firms) that include financial and compliance testing to evaluate grantees during
       grant implementation so that emerging issues can be promptly identified and remedied.
       Examples of these issues include grantees needing better cash management, improved
       procurement practices, and more accurate financial reporting. Since FY 2009, OIG
       audits and single audits have identified more than $56 million in questioned costs and
       funds to be put to better use.




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                         10
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

   •   Consolidation of the Department’s three separate grants management systems into a
       single system to improve efficiency and reduce the need for grants personnel to
       manually correct errors or inconsistencies. Currently, the Department’s grants and
       contracts personnel have to perform many manual procedures to compensate for
       errors or inconsistencies in the grants and contracts systems. Updated systems could
       result in a more efficient use of time and resources, as well as ensure consistently high
       data quality and lower error rates. This will help the Department meet future
       requirements of the Government Accountability and Transparency Board that is being
       formed in response to an Executive Order by the President.

Continue Oversight of the Broadband Technology Opportunities Program

At some $4 billion, the Broadband Technology Opportunities Program (BTOP) represents a
significant investment of federal funds to develop and deploy broadband services nationwide.
The success of this program depends on the efforts of the National Telecommunications and
Information Administration (NTIA)—along with its grant management partners, NOAA and
NIST—and the rigor and strength of its oversight. The uncertain funding for BTOP oversight in
FY 2012 and beyond raises significant concerns about NTIA’s ability to adequately oversee the
program in the future. BTOP is a high-risk program that requires continuous, long-term
oversight for several reasons. The approximately 230 BTOP awards represent the largest and
most complex grant program NTIA has ever overseen. These grants went to a diverse group of
recipients, many of them first-time federal award recipients. As of September 30, 2011, only
about 19 percent of BTOP funds had been disbursed; the potential for fraud, waste, and abuse
associated with such a large dollar amount of awards will increase substantially as recipient
spending rises. As a result of the current spending pace, we are concerned that some grantees
will not complete projects within three years of the grant issuance date. This completion goal is
required by NTIA, as well as a recent memo by OMB requiring agencies to ensure that
recipients complete all Recovery Act spending by September 30, 2013. Meeting completion and
spending goals will require close monitoring by management.

We have issued several reports on the program underscoring the need to continue active
program oversight, and we have provided training and guidance to program staff, contract staff,
and grant recipients. We will continue to track BTOP’s progress toward achieving program
goals and its compliance with statutory and programmatic requirements.

Apply Lessons Learned from 2010 Decennial to Planning for the 2020 Census to Avoid
Cost Overruns

While decennial field operations were successfully completed in 2010, if the next census uses
the same design its life-cycle cost estimate ranges from a low of $22 billion to a high of $30
billion. Given these projections, Census has to fundamentally change the design,
implementation, and management of the decennial census to obtain a quality count for a
reasonable sum of money.




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 11
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

The decade’s early years are critical for deciding on a
design and for implementing these changes. According to        “Our historical review had
the bureau, the research and testing phase determines          found that the census costs will
how much change can be made to decennial operations;           have escalated by more than
this phase has to occur early in the decade to reduce
cost and risk. With funding constraints likely, the bureau     600 percent over the period
needs to prioritize its research and testing to determine      1960–2010, even after
the feasibility, cost, and data quality impacts of proposed    adjusting for inflation and the
census design changes.
                                                               growth in housing units.”
This summer, we issued our final report to Congress on
                                                               National Research Council
the 2010 decennial. In the report, we outlined several
                                                               Envisioning the 2020 Census (2010)
challenges the Census Bureau has to effectively address
in time for the 2020 Census:

   1. revamp cost estimation and budget processes to increase accuracy, flexibility, and
      transparency;
   2. use the Internet and administrative records to contain costs and improve accuracy;
   3. implement a more effective decennial test program using existing surveys as a test
      environment;
   4. effectively automate field data collection;
   5. avoid a massive end-of-decade field operation through continuous updating of address
      lists and maps; and
   6. implement improved project planning and management techniques early in the decade.

Protect Against Cost Overruns and Schedule Slippages for Headquarters Renovation

For the first time in its 79-year history, the Herbert C. Hoover Building (HCHB)—Commerce’s
Washington, D.C., headquarters—is undergoing a comprehensive renovation. The project,
currently scheduled for completion in 2021, has a budgeted cost of $958 million. Although the
General Services Administration (GSA) owns the building, the Department is responsible for
funding tenant improvements, such as

   •   upgrading all mechanical, electrical, and safety systems to alleviate code deficiencies,
       conform to industry standards, meet GSA guidelines, and extend the building’s useful
       life;
   •   increasing usable space;
   •   increasing energy and environmental efficiencies; and
   •   incorporating security improvements.

The President’s FY 2012 budget included over $16 million for Commerce to fund tenant
improvements. However, the pending House appropriations bill for FY 2012 would reduce the
Department’s requested appropriation for the renovation by almost $1.2 million. This


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                  12
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL

reduction, along with budget cuts to meet OMB’s FY 2013 guidance and a decade of restricted
spending, will increase the risk of delays and could cause the project to miss the scheduled
completion date. We will continue our ongoing review of construction activities and decisions
critical to the renovation’s success.

Commerce also needs to continue to work closely with GSA as an advocate for the operating
units housed in HCHB since the project has the potential to disrupt Commerce operations and
adversely affect its workforce. We are overseeing how effectively Commerce is working with
GSA, and we will examine the project’s cost schedules, performance, and any health or safety
issues that may emerge as the renovation continues.

 




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                          13
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL


Challenge 3:
Strengthen Department-Wide Information Security to Protect Critical
Information Systems and Data
The Department of Commerce—along with other government agencies, private industry, and
the public—relies on its 280 IT systems to perform critical actions and provide vital
information. The Department’s varied IT functions include processing census and economic
data, managing patent and trademark applications, developing trade information, delivering
meteorological information and severe weather alerts, modeling atmospheric conditions for
weather and climate forecasting, and controlling weather satellites.

In recent years, the federal government—and the Department in particular—have increasingly
taken advantage of Internet-based technologies to interconnect IT systems and conduct
business with the public. According to the Department’s June 2011 green paper, 8 today the
Internet has become central to the nation’s mission to “promote growth and retool the
economy for sustained U.S. leadership in the 21st century.” As this trend continues, cyber
attacks on Internet commerce, vital business sectors, and government agencies have grown
exponentially. In 2010, an estimated 55,000 new viruses, worms, spyware, and other threats
bombarded the Internet daily; according to OMB’s FY 2010 Federal Information Security
Management Act of 2002 (FISMA) report to Congress, the number of cyber incidents reported
for federal systems alone in FY 2010 had increased by approximately 39 percent over FY 2009.

To address cybersecurity threats, the Department is playing a leading role in developing public
policies and private-sector standards and practices that can markedly improve the United
States’ overall cybersecurity posture. For instance, the President’s National Strategy for
Trusted Identities in Cyberspace has tasked the Department this year to coordinate federal
government and private-sector efforts to raise the level of trust associated with the identities of
individuals, organizations, networks, services, and devices involved in online transactions.

But Commerce’s own IT systems are constantly exposed to an increasing number of cyber
attacks, which are becoming more sophisticated and more difficult to detect. And clearly,
cybersecurity threats are exacerbated by the globally interconnected and interdependent
architecture of today’s computing environment. As a result, security weaknesses in one area
may provide opportunities for exploitations elsewhere. With this in mind, the Department
must continue to improve the effectiveness of its security measures to protect the
confidentiality, integrity, and availability of critical systems and information.

Continue Working to Improve IT Security by Addressing Ongoing Security Weaknesses

For our FY 2010 FISMA audit report, we evaluated 18 Commerce IT systems and concluded
that the Department’s information security program and practices have not adequately secured


                                                            
8
 Cybersecurity, Innovation and the Internet Economy, The Department of Commerce Internet Policy Task Force, June
2011.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                             14
  DEPARTMENT OF COMMERCE
U.S.                                                                                            OFFICE OF INSPECTOR GENERAL

Department systems. The report presented major findings that required senior management
attention, as shown in table 4.

Table 4. OIG’s FY 2010 FISMA Findings Show Significant Weaknesses
in Commerce’s Systems
Measure                                                                                        Finding
High-risk vulnerabilities identified                           Extensive vulnerabilities in system software suggest considerable
                                                               likelihood of a security breach; patch management and vulnerability
                                                               scanning practices are not effective. Scans identified significantly
                                                               more high-risk vulnerabilities than were previously known.
Configuration settings defined and documented                  Only 4 of 18 systems (1 high-impact) adequately defined and
                                                               documented secure settings for operating systems and major
                                                               applications. This is a long-standing deficiency in a crucial security
                                                               practice.
Configuration settings securely implemented                    Only 1 of 18 systems securely configured settings for its operating
                                                               systems.
Security weaknesses and corrective actions                     Most systems exhibited significant deficiencies in reporting and
adequately reported and tracked                                tracking security weaknesses. As a result, the information about
                                                               corrective action that the Department is using for performance
                                                               measurement is inaccurate and inconsistent.
Contingency plans adequately tested                            Six of 18 systems’ contingency plans were inadequately tested,
                                                               including 2 systems that support the primary mission-essential
                                                               weather forecasting function; testing of these 2 systems’ contingency
                                                               plans had not been done since FY 2007.
Alternate processing sites arranged                            Five systems that are required to have alternate processing sites do
                                                               not have them, including three systems—two high-impact and one
                                                               moderate-impact—that support weather forecasting. Documents
                                                               attribute the lack of alternate sites primarily to budget constraints.
Source: OIG, 2010 FISMA report
 
According to OMB’s FY 2010 FISMA report to Congress, while the Department reported
spending more than $165 million on IT security, its standing related to IT security posture is
generally lower compared to other federal agencies (table 5).

Table 5. Summary of OMB FY 2010 FISMA Report to Congress
(Selected IT Security Key Metrics) a
                                                                                  Commerce’s Standing
Key Metrics                                                                        Among 24 Agencies
                                                                                    (From the Top)
Smartcard issuance                                                                        19
IT assets with automated inventory capability                                                  18
IT assets with automated vulnerability management capability                                   20
Portable computers with encryption                                                             10
Security training for users with significant security responsibilities                         16
Security training for new users                                                                15
Source: OMB
a Information in the table is based on data provided to OMB by the agencies, not agency inspectors general.



Last year, we recommended that Commerce revise its IT security policy by providing specific
implementation guidance that will ensure more effective and consistent practices across the


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                      15
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

Department. Further, we recommended the Department increase management attention to
ensure that the deficiencies we identified are rectified Department-wide.

In responding to our recommendations, the Department developed an action plan to address
the security weaknesses we identified; in the past year, the Department has taken several steps
toward improving IT security. It has continued to enhance IT security workforce training, has
increased collaboration between Department and operating unit chief information officers, and
is currently revising its IT security program policy to address recommendations from our FY
2010 FISMA audit report. The Department has also taken the significant step of including
information security measures in the Deputy Secretary’s quarterly balanced scorecard review
with bureau heads during FY 2011.

While we believe these efforts should strengthen the Department’s IT security program, much
more needs to be done. Until the Department successfully implements the items in its action
plan, we can expect to find recurring security weaknesses—in both agency and contractor
systems—that undermine the Department’s ability to defend its systems and information, and
that require greater attention and commitment from the Department’s senior management. In
fact, our ongoing FY 2011 FISMA work continues to find significant security weaknesses in
Department and contractor systems. Our review of the Department’s web applications
identified significant security weaknesses that put them at risk of cyber attack, and our
assessment of the selected Department IT systems found continued lapses in implementing
critical security controls related to secure configuration settings, auditing and monitoring, and
controlling access.

Implement Security Policy Effectively Through Consistent, Proactive Management

Our findings this year reaffirm the need for increased management attention by the
Department’s Chief Information Officer, senior operating unit leadership, and senior program
officials to ensure security policy and practices, including the associated performance evaluation,
are applied consistently and effectively across the Department. For example, in 2010, the
Department’s Office of the Chief Information Officer and the Office of Human Resources
issued joint memorandums to address performance management and accountability issues
identified in our 2009 IT security workforce audit. These memorandums provided specific
performance requirements to be incorporated in performance plans for individuals holding
critical IT security roles within the Department. If fully implemented, this would be a positive
step toward increasing management accountability to the Department’s IT security posture.
However, we reviewed a sample of FY 2010 and FY 2011 performance plans for authorizing
officials, system owners, and other individuals holding critical IT security roles in two operating
units, and found that specific requirements for these roles are not consistently incorporated in
some of the performance plans. We found plans that did not incorporate any of the
requirements and other plans that incorporated only some. The Department, therefore, needs
to determine the extent to which operating units are incorporating these requirements into
their performance plans and whether the incorporation is producing the desired effect.

The Department also faces the challenge of transitioning from a traditional certification and
accreditation process, which assessed a system’s security controls every 3 years, to NIST’s


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                               16
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

current risk management framework, which emphasizes continuous monitoring of security
controls. The Department is modifying its policy to adapt to the risk management framework
and taking two critical initiatives to secure Commerce’s cyber infrastructure:

    •   In response to a mandate by OMB, the Department is planning to strengthen its
        networks' peripheral security protection with Trusted Internet Connections (TICs)
        equipped with monitoring devices provided by the Department of Homeland Security.
        Commerce has identified hundreds of Internet connection points that need to be
        secured. Currently, the majority of operating units have awarded a contract to
        implement TIC protection during 2011 or 2012; however, NOAA’s timetable for
        implementing TIC protection extends all the way to 2014. Considering the
        vulnerabilities that we have identified in Commerce systems and increased threats on
        the Internet, management should strive to accelerate the TIC implementation timetable.
    •   The Department is planning to implement two key elements of its IT security strategic
        plan developed in FY 2010: enterprise continuous monitoring capability and an
        enterprise cybersecurity center. These initiatives are critical to proactively protecting
        Commerce networks. However, as we discuss in challenge 2, Department management
        needs to carefully prioritize the elements of these initiatives so that the limited funds
        that are available can be used to implement the most critical elements first.

                                




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                              17
  DEPARTMENT OF COMMERCE
U.S.                                                                                     OFFICE OF INSPECTOR GENERAL


Challenge 4:
Manage Acquisition and Contract Operations More Effectively to Obtain Quality
Goods and Services in a Manner Most Beneficial to Taxpayers
The Department’s acquisition and contract operations are critical to its ability to effectively
fulfill its mission. In FY 2010, the Department obligated nearly $4 billion through more than
26,000 contract actions 9 to acquire a wide range of goods and services to support mission-
critical programs, including satellite acquisitions, intellectual property protection, broadband
technology opportunities, management of coastal and ocean resources, information technology,
and construction and facilities management. Table 6 illustrates the growing dollar amounts that
Commerce’s operating units have obligated through contracts in recent years.

Table 6. Contract Actions by Operating Unit, FY 2008 Through 2010 a
                                              FY 2008              FY 2009 b                            FY 2010 b

Commerce
                     Contract            Dollars          Contract              Dollars           Contract          Dollars
Acquisition
                      actions         (in millions)        actions           (in millions)         actions       (in millions)
Office
NOAA                       15,625               $990             16,831              $1,159             16,087           $1,624
Census                      2,267               $681              3,332              $1,308              3,187           $1,312
USPTO                       1,794               $489              1,776                $384              1,619             $431
NIST                        4,481               $233              4,768                $286              4,992             $505
Office of
                              903                $79                768                 $63                870              $53
Secretary
Total                      25,070             $2,472             27,475              $3,200             26,755           $3,925
Source: Department of Commerce Office of Acquisition Management
a Dollar amounts are rounded.
b FY 2009 and 2010 include $361 million and $754 million, respectively, in contract actions obligated under the American

Recovery and Reinvestment Act. These years also reflect significant contract spending related to the 2010 decennial census.


In order to maximize its investments, the Department needs to strengthen its acquisition and
contract management practices. Acquisition management is not just the act of awarding a
contract; while a contract is a product of an acquisition, there is an entire process that begins
with identifying a mission need and developing a comprehensive strategy to fulfill that need
through a thoughtful, balanced approach that considers cost, schedule, and performance. While
the Department has made some progress in this important area, our audits continue to find
weaknesses in how the Department plans, administers, and oversees its contracts and
acquisitions.
Commerce has made important efforts to address these challenges. In June 2010, the Secretary,
in an effort to strengthen and improve the quality of Commerce's acquisitions, initiated a
comprehensive review of the Department’s acquisition processes. The study found fragmented,
overlapping, and inadequate departmental oversight and unclear roles and responsibilities of the
offices involved in acquisitions. These problems allowed the operating units to initiate large
acquisitions without the benefit of Department-level governance and insight. While the
Department has established working teams to develop and implement solutions to these
                                                            
9
    Contract actions include contracts, delivery orders, task orders, and contract modifications.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                           18
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

problems, it is early in the process. Commerce hopes to have a framework in place for a
Department-wide acquisition improvement project by the end of October 2011. However,
developing the framework is just the first step in implementing solutions to the problems
identified in the Secretary’s acquisition study. Commerce must follow through on the
Secretary’s commitment—as well as take other needed actions to address the weaknesses we
have identified—to establishing an efficient and effective acquisition process.

Develop and Retain a Qualified Acquisition Workforce

The Department needs to maintain an acquisition workforce that can effectively oversee its
expanding and increasingly complex contract practices. As we reported in our September 2010
memorandum on Commerce’s Recovery Act contracts and grants workforce, the Department
claimed that almost all contracting personnel have met the Office of Federal Procurement
Policy’s requirements for job-related certifications and continuous learning. Nonetheless,
recruitment, training, and retention still pose risks to the Department’s ability to meet its
increasing acquisition workload. For example, in FY 2010, the Department’s attrition rate was
15 percent for contracting officers and 6 percent for contracting officer representatives and
project managers. The Department estimates that maintaining a sufficient number of contract
staff will require a 41 percent increase in contracting positions, a 56 percent increase in
contracting officer representatives, and a 77 percent increase in project managers over the next
4 years.
In addition to staff lost through attrition, between FYs 2009 and
2019, 54 percent of the senior-level acquisition employees in the       By 2019, the
Department’s contracting series will be eligible to retire.             Department expects to
According to the Department, it lacks a sufficient pipeline of          lose over half of its
entry- to mid-level professionals with the knowledge and
leadership skills to adequately sustain operations during the           senior acquisitions
projected retirement wave. As experienced professionals leave           work force to
the Department, Commerce must implement a strategy to keep              retirement.
its workforce at the needed size and skill levels to support its
mission.

Ensure High Ethical Standards in the Acquisition Workforce and in Procurement
Practices

Prevention and deterrence of ethical violations in any organization depends upon internal
controls, oversight, and robust ethics awareness and training programs. Government
contracting is risky by nature, and Commerce employees in contract-related positions
represent the first—and best—line of defense in ensuring program integrity by promptly
recognizing and reporting ethics violations and fraud indicators. Their vigilance, along with
effective internal controls, is essential to combating fraud.
Because federal acquisition professionals have considerable control over how and to whom
contracts are awarded, the profession has an inherent need for strong ethics monitoring and
effective internal controls. Ethics training should include discussions of actual ethics violations


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                    19
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

and “what-if” scenarios illustrating situations to avoid. Staff should also receive training on how
to avoid the appearance of a conflict of interest. As an added safeguard, Commerce ethics
officials should periodically review the ethics programs of contractors to help identify and
prevent conflicts or violations.
Historically, our investigations have identified the need for more vigilant oversight and stronger
process controls to detect and prevent procurement fraud, waste, and abuse within the
Department and among its fund recipients and contractors. The following examples of OIG
investigative findings illustrate the need for Commerce’s continued attention to procurement
integrity issues:

   •   questionable sole sourcing practices by local program officials against advice of counsel,
   •   regional officials steering contracts to acquaintances,
   •   improper splitting of purchase card transactions to circumvent spending limits, and
   •   improper communications with unsuccessful contract bidders.

Another control that the Department needs to strengthen is its suspension and debarment
program, which would help to ensure Commerce awards contracts and grants only to
responsible parties. In January 2011, we reported that the Department’s ability to safeguard
itself against awarding contracts and grants to improper parties was limited by delays in its
suspension and debarment decisions. The Government Accountability Office has also recently
issued a report disclosing that the Department needed to improve its suspension and
debarment practices.
In April 2011, the Department made its first decision to debar a contractor (or any other
party) in over 15 years. In this case, we recommended debarment to Commerce’s senior
procurement officials because the contractor had been convicted of conspiracy to commit
money laundering and sentenced to 9 years in prison. But a more than 3-year lapse between
our initial recommendation to bureau officials and the Department’s final action highlights the
problems with the Department’s approach to suspensions and debarments. Commerce’s
current Suspending and Debarring Official has begun to develop the processes and policies that
form the foundation of a successful suspension and debarment program but, despite this recent
progress, creating an efficient and durable program remains a challenge.

Strengthen Processes to Govern the Appropriate Use               OMB defines high-risk
of High-Risk Contracts and to Maximize                           contracts as contracts
Competition                                                      awarded noncompetitively or
                                                                 in which only one bid was
Recent OMB contracting initiatives promote agency use
of competition and fixed-price contracts and require             received in response to a
agencies to effectively analyze prices to mitigate risks for     solicitation; cost-
noncompetitive contract awards. In FY 2010, the
                                                                 reimbursement contracts; and
Department obligated over $473 million under
contracts considered to be high risk. High-risk contracts        time-and-materials and labor-
increase the risk of loss to the government because they         hour contracts.

OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                20
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

provide fewer incentives for contractors to control costs while requiring more government
resources for oversight. New high-risk contracts awarded by Commerce represented
39.5 percent of the total dollar value of all new awards made in FY 2010. The Department was
required to reduce the amount obligated for new awards of high-risk contracts by at least 10
percent in FY 2010. 10 However, our recent work illustrates that the Department needs to
further improve its controls over high-risk contracts.
In our ongoing work, we have found that the Department has reduced its ratio of new high-risk
contracts to total new contracts by over 15 percent. However, it did not report any FY 2010
cases to OMB in which a high-risk contract was reduced or eliminated. In fact, the dollar value
of high-risk contracts actually increased significantly from 2008 to 2010. Specifically, total dollars
obligated for new high-risk contracts in FY 2010 increased by $143 million (more than 43
percent) from FY 2008. Although there were no reported reductions or eliminations of high-
risk contracts in FY 2010, operating unit acquisition officials have taken actions that should
result in more extensive use of competitive fixed-priced contracts in FY 2011 and beyond.
Further, without strong oversight, cost-plus-award-fee (CPAF) contracts can represent an
additional risk of loss to the Department. The award fee in CPAF contracts is intended to
motivate excellence in contractor performance and can also serve as a tool to control program
risk and cost. However, the monitoring and evaluation of contractor performance necessary
under a CPAF contract requires additional administrative effort and cost; federal regulations
provide that such a contract is suitable only when the expected benefits of the contract are
sufficient to warrant the added effort and cost. As we noted in our FY 2011 report, Top
Management Challenges Facing the Department of Commerce, during 2010 decennial operations,
the Census Bureau paid contractors millions of dollars in contract award fees that were not
sufficiently designed or administered as required by regulations. For instance, for the Field Data
Collection Automation (FDCA) contract, there were award fees that were excessive and not
supported by technical assessments of the contractor’s performance. Our 2009 review of two
FDCA contract performance periods revealed that the contractor received over 90 percent of
the available fees despite serious performance problems noted by Census’s technical reviewers.
Furthermore, the fee determination process lacked key features—such as qualitative measures
and midpoint assessments—for ensuring awards were appropriate.

Achieve Efficiency and Savings in Acquiring Goods and Services, and Improve Oversight
and Tracking of Contract Savings

OMB’s contracting initiatives require agencies to improve oversight of contractors and focus on
cutting contract costs by using smarter buying practices. The Department was required to
develop an acquisition savings plan to review its existing contracts and acquisition practices and
reduce contract spending by 3.5 percent in FY 2010 and an additional 7 percent by the end of
FY 2011. Commerce had claimed cost savings of several million dollars resulting from the
implementation of several initiatives in its November 2009 acquisition savings improvement
plan; however, we found that the actual amount of cost savings achieved to date is uncertain
because many of the amounts reported by the operating units are unsupported or

                                                            
10
     OMB Memorandum M-09-25, July 29, 2009. Improving Government Acquisition.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                      21
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

overestimated, and controls used to develop the methods for estimating savings are not
adequate or well defined. Several factors contributed to this problem, including the lack of
effective coordination, monitoring, and verification processes. For example, the Department’s
Office of Acquisition Management did not verify a nearly $18 million savings claim by the
Census Bureau for its bulk purchase of scanners. We disagreed with the bureau’s calculation of
its claimed savings, which was based on list prices; a more realistic value for the savings would
have been the difference between what Census would have spent for the scanners in the
absence of the savings initiative—based on prices it would have received for smaller-quantity,
regional purchases—and what it ultimately paid as a result of pursuing the initiative to
consolidate the acquisitions into a single nationwide action.
The Department has taken steps to improve its monitoring and verification of the cost savings
reported by the operating units’ procurement offices. Specifically, it is developing a process to
standardize the contract savings reporting among the procurement offices and also requiring
each office to report monthly on its actual contract savings; the Department will validate a
sample of the reported savings each quarter. While such efforts to improve reporting represent
real progress, continued attention will be needed to meet the level of accountability called for
by OMB. In challenge 2, we describe additional departmental actions to achieve cost savings by
eliminating improper payments.

Deliver Cost Savings and Efficiency on Major IT Investments

The Department spends about 25 percent of its annual budget
($2.5 billion) on IT investments (excluding satellite spacecraft)—
                                                                      The Department spends
one of the highest percentages among all federal agencies. With       about 25 percent of its
such a large amount being spent on technology, the Department         annual budget on IT
must watch for any opportunity to save money, improve
efficiency, and prevent setbacks to these important projects.
                                                                      investments—one of the
                                                                      highest percentages
For instance, OMB requires agencies to compile the cost and
                                                                      among federal agencies.
schedule variances of major IT investment projects, the results
of which are posted publicly on the government’s IT Dashboard
website for accountability and transparency. In its results, the Department reported serious
cost and schedule problems concerning four NOAA IT investment projects, totaling
$265 million of Commerce’s annual investments. NOAA management also expressed concerns
that these IT system deficiencies, if not properly resolved, could result in serious disruptions to
its 24/7 weather forecasting capability or satellite support operations.
In addition, USPTO has embarked on its Patent End-to-End (PE2E) acquisition initiative to
significantly improve or replace nearly all of its aging patent processing systems. At a cost of
$130 million (by USPTO’s current estimate), PE2E is the largest, most complex multi-year IT
investment USPTO has undertaken in several years. In evaluating USPTO’s management of the
acquisition, we have identified challenges and offered recommendations related to improving
long-term technical and acquisition planning, as well as strengthening USPTO’s oversight of the
project.




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                22
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Challenge 5:
Manage the Development and Acquisition of NOAA’s Environmental Satellite
Systems to Avoid Launch Delays and Coverage Gaps
For the past 50 years, NOAA, in partnership with
the National Aeronautics and Space Administration                   “Polar-orbiting satellites are the
(NASA), has been responsible for developing and                     backbone of all model forecasts at
operating polar and geostationary environmental                     three days and beyond. . . . NOAA is
satellite systems. NOAA’s environmental satellite
operations and weather forecasting are designated                   faced with a nearly 100% chance of
primary mission-essential functions of the                          a data gap in the U.S. civilian polar
Department of Commerce because they directly                        orbit, on which both civilian and
support government functions the President has                      military users rely, by late 2016 to
deemed necessary to lead and sustain the nation
                                                                    early 2017.”
during a catastrophe. But NOAA’s current
constellation of polar and geostationary operational                Dr. Kathryn D. Sullivan, Assistant Secretary of
environmental satellites is aging, and its capabilities             Commerce for Environmental Observation and
will degrade over time. As a result, the risk of gaps in            Prediction and Deputy Administrator of NOAA, in
critical satellite data is increasing.                              July 28, 2011, written testimony to the U.S. Senate
                                                                    Committee on Appropriations, Subcommittee on
                                                                    Financial Services and General Government
Between 1995 and early 2010, NOAA partnered
with the Department of Defense and NASA in the
development of the National Polar-orbiting Operational Environmental Satellite System
(NPOESS), which was at that time the planned replacement system for NOAA’s Polar
Operational Environmental Satellite System and Defense’s Defense Meteorological Satellite
Program. The original NPOESS program was to develop six satellites, with first launch planned
for 2009 and an estimated life-cycle cost of $6.5 billion through 2018. By late 2009, however,
the program had reduced its scope to four satellites, with the first launch delayed until 2014,
while its life-cycle cost estimate had escalated to $14 billion through 2026.

In February 2010, the White House’s Office of Science and Technology Policy announced its
decision to have NOAA, in partnership with NASA, establish the Joint Polar Satellite System
(JPSS) program as part of the restructuring of NPOESS due to its long history of cost overruns
and schedule delays. At that time, the JPSS program planned to launch two satellites—at an
estimated cost of $11.9 billion—to collect data for short- and long-term weather and climate
forecasting through 2026. But in order to be included in the FY 2011 President's budget
request, the JPSS budget estimate had to be developed so quickly that, while NOAA had
existing NPOESS requirements in place, it did not have time to formally approve high-level
requirements for JPSS. 11

                                                            
11
  In a September 23, 2011, hearing before the House Subcommittees on Investigations and Oversight and Energy
and Environment, Committee on Science, Space, and Technology, the Assistant Secretary of Commerce for
Environmental Observation and Prediction and Deputy Administrator of NOAA stated that NOAA has recently 
completed high-level JPSS requirements, refining its cost estimate, and will incorporate updated baselines (cost,
schedule, and performance) in the upcoming FY 2013 budget submission.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                    23
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

The second system, the Geostationary Operational Environmental Satellite-R Series (GOES-R),
is intended to offer uninterrupted short-range severe weather warning and “now-casting”
through 2036. With an estimated cost of $10.9 billion for four satellites, this program
experienced projected cost changes and reduced capabilities, which occurred while GOES-R
was in the midst of defining the system architecture. Working with NASA, NOAA is
responsible for managing the entire program and for acquiring the ground segment, which is
used to control satellite operations and to generate and distribute instrument data products.

Given their histories, both of these critical satellite programs require strong program
management and close oversight to minimize further delays and prevent any interruptions in
satellite coverage. Our work has identified three near-term priorities for NOAA as it manages
JPSS and GOES-R:

   1. timely launch and complete the data checkout for the NPOESS Preparatory Project
      (NPP);
   2. strengthen program management and systems engineering to mitigate JPSS coverage
      gaps; and
   3. maintain robust program management and systems engineering to prevent GOES-R
      coverage gaps.

Prevent a Near-Term Polar Satellite Coverage Gap Between NOAA-19 and NPP

The first JPSS satellite (JPSS-1) will be preceded in orbit by the NPP satellite, originally a NASA-
led risk reduction effort to test NPOESS’ new instruments in flight. Scheduled for an October
28, 2011, launch, NPP will now be used operationally to maintain continuity of climate and
weather forecast data (used, for example, in the prediction of heavy snowstorms and flooding)
between NOAA’s current polar-orbiting operational environmental satellite (NOAA-19) and
JPSS-1. Recent efforts by NASA’s NPP team (including contractors) have put the satellite on
track to launch in late October, but late development of the ground system has compressed the
mission schedule and delayed the schedule for data product availability after launch.

After the launch, NOAA originally planned to make NPP operationally ready in 18 months,
which coincides with the end of the design life of NOAA-19 (approximately March 2013). This
plan left little room for contingencies. Both NOAA and OIG have identified a number of risks
that, if not properly mitigated, could cause further delays in NPP operational readiness and
degradation of NOAA’s weather and climate forecasting capability:

   •   According to the ground system’s contractor, Raytheon, the ground system will not be
       able to support the validation of a significant number of data records until after a system
       upgrade, planned for March 2012. In addition, NOAA has not finalized coordination
       between the NPP/JPSS program and NOAA’s Center for Satellite Applications and
       Research (STAR), which is critical to transferring satellite observation into operations.
       Consequently, NOAA has extended its projection for readiness from 18 to 24 months
       after launch, which could lead to a coverage gap between NOAA-19 and NPP if NOAA-
       19 stops functioning properly at the end of its design life.



OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                24
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

       •      We also observed that, unlike NOAA’s existing operational satellite systems, NPP has
              only a single mission management center for controlling the satellite, and NPP’s ground
              station has the system’s only science data downlink (the means to transmit a signal from
              the satellite to the ground station). JPSS program officials told us they have
              commissioned studies to develop an alternate mission management center and hope to
              have one ready well in advance of the JPSS-1 launch. They also told us that the ground
              station has redundancy in terms of antennas and equipment. However, while there is
              redundancy, the use of a single ground station in a single geographic location is not
              consistent with NOAA’s existing polar and geostationary operational environmental
              satellite systems, in which more than one location is used.

       •      NASA conducted two ground system/NPP satellite compatibility tests in 2011; the first
              test had been delayed when ground system software builds took longer than expected
              to produce. Both tests experienced further delays and compressed the remaining work
              schedule for the October 2011 NPP launch. NASA has had to postpone analysis of
              some test results and requirements verification until after NPP’s launch. Also, in
              response to an independent review team’s recommendations, the project has completed
              a stress test in late September and early October to evaluate NPP’s operational
              readiness. Any system fixes required to mitigate concerns identified during the stress
              test would add to the postlaunch data production workload.

In order to reduce the risk of a data gap between NOAA-19 and NPP, NOAA management
needs to provide sufficient oversight to enable communication and coordination between the
JPSS program and STAR as well as ensure additional resources are available after launch to
support activities needed for data production. NOAA should also determine the feasibility of
establishing an alternate mission management center and an additional science data downlink
for NPP as soon as possible.

Ensure Solid Program Management and Systems Engineering Principles Are Applied to
Mitigate JPSS Coverage Gaps

NOAA expects a gap in weather and climate observations between NPP’s end of design life and
the operational date of JPSS-l. NPP’s projected end of design life is November 2016, NOAA
plans to launch JPSS-1 in the first quarter of 2017, 12 and there is a minimum 6-month checkout
period before key data products from JPSS-1 can be used operationally. We believe that, due to
continued budget uncertainty and probable FY 2012 funding somewhat below the President’s
budget request, the JPSS-1 launch date will be no earlier than February 2017. Based on a
February 2017 launch, the gap would last at least 9 months (3 months from November to
February, plus the additional 6 months for checkout). Should checkout take 18 months (as
NPP’s is projected to do), the gap would extend a total of 21 months (figure 2, next page).
NOAA’s studies have found that its weather forecasting at 5, 4, and 3 days before an event
could be significantly degraded during the coverage gap period.

                                                            
12
  According to NOAA, JPSS-1 could launch in the first quarter of FY 2017 with (1) the program receiving the full
President’s budget request for FY 2012 ($1.07 billion) and beyond and (2) no FY 2012 continuing resolution
beyond the first quarter of FY 2012.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                 25
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                       OFFICE OF INSPECTOR GENERAL

A checkout period longer than 6 months will be necessary to achieve full operational capability
(versus an interim capability to produce key data products). Full checkout may take longer
because JPSS-1 instruments will have manufacturing changes from the models flown on NPP
and, in all probability, NPP will no longer be operational when JPSS-1 is on-orbit, thus leaving
the JPSS-1 mission without a direct, and more efficient, means for comparison.

                           Figure 2. Potential Continuity Gaps in Afternoon Orbit
          Fiscal Year
           2009     2010   2011   2012    2013     2014    2015    2016     2017    2018    2019    2020    2021    2022     2023    2024    2025    2026     2027


                      NOAA‐19

          Feb ‘09
                                                          NPP

                             Oct ‘11
                                                                                                    JPSS‐1

                                                                          Feb‘17
                                                                                                                                            JPSS‐2

                                                                                                                Fall‘21
                            Satellite Launch Date
                            (Note: Actual launch date shown for NOAA-19, planned launch date for NPP, estimated launch date for JPSS-1 and JPSS-2)

                            Satellite Checkout Period - Planned time before all operational data available (6-18 month window)
                            Satellite Operational Period - Expected period to receive operational data from satellite based on design life
                            (Note: Some data is available during the satellite checkout period.)
                            Potential Continuity Gap - A gap in coverage could occur in the event of NOAA-19's early end-of-life, NPP launch delay, or an
                            extended checkout period for NPP post-launch. Potential gap between NPP and JPSS-1 is a minimum of 9 months based on 3 months
                            between end of NPP operations and JPSS-1 launch plus a 6 month checkout period

                            Maximum Continuity Gap - The gap between NPP and JPSS-1 would be 21 months if post-launch checkout extends to 18 months.
                            Actual gap, if any, depends on actual life of satellites, how well instruments are operating, as well as other factors (such as checkout)

          Source: OIG analysis of NOAA data, as of August 22, 2011


We have identified the following areas that require senior management attention to help ensure
JPSS-1 operational readiness and minimize the potential impact of the coverage gap:

   •   Prioritize all JPSS requirements, develop reliable cost estimates to support
       future funding requests, and systematically communicate planned actions
       and progress with decision makers. NOAA is currently developing a revised life-
       cycle cost estimate. Additionally, NOAA tasked NASA with developing contingencies
       that prioritize some of the most important requirements and maintain a launch
       readiness date no later than February 2017. We believe the JPSS program should
       formally prioritize all of its requirements, not just the subset in this contingency
       exercise, so that it can efficiently adjust the program’s performance capabilities or
       launch dates, if needed, in response to year-to-year funding variances. Further, the
       program should develop a plan to accommodate requirements that may have to be
       removed or relaxed when annual funding falls short of the program’s budget but could
       be recouped in future appropriations. Finally, due to the importance and complexity of
       the JPSS program, NOAA must ensure that a program baseline (cost, schedule, and
       requirements) is established as soon as possible, and keep the Department and



OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                                                                                      26
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

       Congress informed of its planned actions and progress against this baseline to facilitate
       decision making.
   •   Coordinate NOAA response, in case NPP does not live through its 5-year
       design life. The NPP spacecraft was designed to last 5 years and carries enough fuel to
       last 7 years. However, most of its instruments were managed and developed under the
       NPOESS contract, which received limited government oversight and had a history of
       technical issues. Additionally, NASA lacked technical oversight during the instrument
       development, manufacturing, and testing phases, creating uncertainty about the
       instruments’ ability to operate for the length of the spacecraft’s design life. For these
       reasons, NASA’s revised criteria for NPP mission success called for only 3 years of
       operability. Although NOAA’s current analysis assumes that NPP will have a 5-year
       operational life, NOAA understands that a residual risk of a shorter life expectancy
       remains due to the lack of oversight during the development of most of NPP’s
       instruments. In order to sufficiently prepare for an expected gap in polar satellite data
       from the afternoon orbit, NOAA should coordinate efforts from across its line offices
       to minimize the degradation of weather and climate forecasting during gaps in coverage.

Maintain Robust Program Management and Systems Engineering Disciplines to Prevent
Geostationary Coverage Gaps

NOAA’s policy for its geostationary satellites is to have three satellites in orbit—two
operational satellites (GOES-East and GOES-West) and one on-orbit spare that is ready for use
operationally should either of the active satellites fail (figure 3).

                             Figure 3. GOES-R Orbital Coverage




   Source: NOAA



When GOES-R is launched in October 2015, NOAA may not be able to meet its policy of
having an on-orbit spare because GOES-13 will have exceeded its operational life (figure 4, next
page). Until GOES-R completes its 6-month postlaunch test, there would be only two


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                 27
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL

operational satellites (GOES-14 and GOES-15). A similar lack of an on-orbit spare will occur
when the next GOES satellite, GOES-S, is launched in February 2017 (only GOES-15 and
GOES-R would be operational). 13

                             Figure 4. Continuity of GOES Operational Satellite Programs




     Source: OIG analysis of NOAA data

GOES-R development is proceeding towards its next key technical milestone (critical design) in
the 4th quarter of FY 2012. According to August 2011 program documentation, the GOES-R
program’s overall schedule and technical development remain on track; however, the ground
project’s development is being modified to control costs. The program is changing the ground
segment’s security architecture and has chosen not to implement some optional data products.
The program is also revising the ground segment’s schedule to a more incremental
development approach—which will increase schedule flexibility, as well as better align the
delivery schedule for GOES-R spacecraft, instruments, documentation and other flight-to-
ground segment dependencies. In light of these developments, NOAA should ensure that solid
program management and system engineering principles are effectively implemented to control
costs, keep schedules on track, and maintain required technical performance.




                                                            
13
     The launch dates for GOES-R and GOES-S are based on NOAA’s current projections.


OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                   28
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Acronym List
BEA                          Bureau of Economic Analysis
BIS                          Bureau of Industry and Security
BTOP                         Broadband Technology Opportunities Program
CPAF                         cost-plus-award-fee
EDA                          Economic Development Administration
ESA                          Economics and Statistics Administration
FDCA                         Field Data Collection Automation
FISMA                        Federal Information Security Management Act
FY                           fiscal year
GAO                          Government Accountability Office
GOES-R                       Geostationary Operational Environmental Satellite-R Series
GSA                          General Services Administration
HCHB                         Herbert C. Hoover Building
IPERA                        Improper Payments Elimination and Recovery Act
ITA                          International Trade Administration
JPSS                         Joint Polar Satellite System
MBDA                         Minority Business Development Agency
NASA                         National Aeronautics and Space Administration
NEI                          National Export Initiative
NIST                         National Institute of Standards and Technology
NOAA                         National Oceanic and Atmospheric Administration
NPOESS                       National Polar-orbiting Operational Environmental Satellite System
NPP                          NPOESS Preparatory Project
NTIA                         National Telecommunications and Information Administration
OIG                          Office of Inspector General
OMB                          Office of Management and Budget
PE2E                         Patent End-to-End
STAR                         Center for Satellite Applications and Research
TIC                          Trusted Internet Connections
TPCC                         Trade Promotion Coordinating Committee
USPTO                        U.S. Patent and Trademark Office

 




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                29
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Related OIG Publications
This list presents OIG’s past and current work related to FY 2012’s top management
challenges. Challenges 3, 4, and 5 are ongoing challenges that were also featured in FY 2011’s
Top Management Challenges Facing the Department of Commerce (OIG-11-015, December 20,
2010). These products can be viewed at www.oig.doc.gov. If the product contains information
that cannot be released publicly, a redacted version or an abstract will be available on the
website.

Challenge 1: Trade and Export Promotion

BUREAU OF ECONOMIC ANALYSIS (BEA)

   •   FY 2008 FISMA Assessment of BEA Estimation Information Technology System (BEA-
       015) (OSE-19001, September 22, 2008)

INTERNATIONAL TRADE ADMINISTRATION (ITA)

   •   Greater Interagency Involvement and More Effective Strategic Planning Would Enhance
       National Export Strategy (IPE-18589, September 25, 2007)
   •   Commerce Can Further Assist U.S. Exporters by Enhancing Its Trade Coordination
       Efforts (IPE-18322, March 30, 2007)
   •   CS Brazil Is Operating Well Overall but Needs Management Attention in Some Areas
       (IPE-18114, March 30, 2007)
   •   Commercial Service Operations in Argentina and Uruguay Are Mostly Sound but
       Financial Processes Need Attention (IPE-18111, September 29, 2006)
   •   CS China Generally Performs Well but Opportunities Exist for Commerce to Better
       Coordinate Its Multiple China Operations (IPE-17546, March 31, 2006)

ECONOMIC DEVELOPMENT ADMINISTRATION (EDA)

   •   Aggressive EDA Leadership and Oversight Needed to Correct Persistent Problems in
       RLF Program (OA-18200, March 30, 2007)
   •   EDC Fund, Inc. Revolving Loan Fund EDA Grant No. 01-39-01829 (ATL-17285, January
       11, 2006)

BUREAU OF INDUSTRY AND SERCURITY (BIS)

   •   Briefing on Issues Related to BIS Budget and Responsibilities for International Treaty
       Implementation and Compliance (October 7, 2008)



OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                               30
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

    •   U.S. Dual-Use Export Controls for India Should Continue to Be Closely Monitored (IPE-
        18144, March 30, 2007)
    •   U.S. Dual-Use Export Controls for China Need to Be Strengthened (IPE-17500, March
        30, 2006)
    •   Export Licensing Process for Chemical and Biological Commodities Is Generally
        Working Well, but Some Issues Need Resolution (IPE-16946, March 31, 2005)

U.S. PATENT AND TRADEMARK OFFICE (USPTO)

    •   Status of USPTO Initiatives to Improve Patent Timeliness and Quality (OIG-11-032-I,
        September 29, 2011)
    •   Stronger Management Controls Needed over USPTO’s Projection of Patent Fee
        Collections (OIG-11-014-A, December 14, 2010)
    •   USPTO Patent Quality Assurance Process (OIG-11-006-I, November 5, 2010)
    •   Overseas Intellectual Property Rights Attaché Program Is Generally Working Well, but
        Comprehensive Operating Plan Is Needed (IPE-19044, July 17, 2008)

The following reviews are in progress:

    •   USPTO’s Largest Telework Program—Patent Hoteling Program

Challenge 2: Operating Effectively in a Constrained Budget Environment

    •   Census 2010: Final Report to Congress (OIG-11-030-1, June 27, 2011)
    •   Commerce Has Procedures in Place for Recovery Act Recipient Reporting, but
        Improvements Should Be Made (OIG-11-031-A, July 29, 2011)
    •   Commerce Needs to Strengthen Its Improper Payment Practices and Reporting (OIG-
        11-021-A, March 25, 2011)
    •   IG’s Testimony on Recovery Act Broadband Spending: House Committee on Energy and
        Commerce (OIG-11-019-T, February 10, 2011)
    •   Commerce Should Strengthen Accountability and Internal Controls in Its Motor Pool
        Operations, OIG-11-004-A (October 27, 2010)
    •   Inspector General’s Semiannual Reports to Congress (September 2010 and March 2011)
    •   Management of the Herbert C. Hoover Building Renovation (OAE-19885, August 5,
        2010)




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                            31
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

The following reviews are in progress:

    •   Review of 2020 Census Planning Efforts
    •   Review of the Effectiveness of NTIA’s Monitoring of BTOP Grant Awards
    •   Review of NTIA BTOP Grantees’ Match

Challenge 3: IT Security

    •   Improvements Are Needed For Effective Web Security Management (OIG-12-002-A,
        October 21, 2011)
    •   Federal Information Security Management Act Audit Identified Significant Issues
        Requiring Management Attention (OIG-11-012-A, November 15, 2010)
    •   Respondent Data Safeguards in the Decennial Response Integration System (DRIS)
        (OAE-19888, September 24, 2010)
    •   FY 2009 FISMA Assessment of the Environmental Satellite Processing Center (OAE-
        19730, January 11, 2010) [abstract only]
    •   FY 2009 FISMA Assessment of the Enterprise UNIX Services System (OAE-19729,
        November 20, 2009)
    •   FY 2009 FISMA Assessment of the Patent Cooperation Treaty Search Recordation
        System (OAE-19731, November 20, 2009)
    •   FY 2009 FISMA Assessment of the Field Data Collection Automation System (OAE-
        19728, November 20, 2009)
    •   FY 2009 FISMA Assessment of BIS Information Technology Infrastructure (OSE-19574,
        September 30, 2009)
    •   FY 2009 FISMA Assessment of Bureau Export Control Cyber Infrastructure, Version 2
        (OSE-19575, September 30, 2009)

The following reviews are in progress:

    •   Effectiveness of IT Security Controls Implemented in Department Systems

Challenge 4: Contracts and Acquisitions

    •   Commerce’s Office of Acquisition Management Must Continue to Improve Its Ongoing
        Oversight of Acquisition Savings Initiatives (OIG-12-001-A, October 6, 2011)
    •   Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce
        Development Risk (OIG-11-033-A, September 29, 2011)



OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                          32
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

    •   2010 Census: Contract Modifications and Award-Fee Actions on the Decennial
        Response Integration System (DRIS) Demonstrate Need for Improved Contracting
        Practices (OIG-11-020-A, February 15, 2011)
    •   Census 2010: Revised Field Data Collection Automation Contract Incorporated OIG
        Recommendations, but Concerns Remain Over Fee Awarded During Negotiations
        (CAR-18702, March 3, 2009)
The following reviews are in progress:

    •   Department of Commerce’s Acquisition Workforce
    •   NOAA’s Management of Cost-Plus-Award-Fee Contracts
    •   NIST Oversight of Recovery Act Construction Grants

    •   NIST’s Oversight of Recovery Act Construction Contracts

Challenge 5: Satellites

    •   Audit of JPSS: Challenges Must Be Met to Minimize Gaps in Polar Environmental Satellite
        Data (OIG-11-034-A, September 30, 2011)

    •   IG Memorandum, NOAA's Joint Polar Satellite System Audit Observations (OIG-11-
        029-M, June 10, 2011)
    •   IG Testimony before the Appropriations Subcommittee on Commerce, Justice, Science,
        and Related Agencies, United States House of Representatives (OIG-11-018-T, February
        9, 1011)
    •   IG Testimony before the Subcommittee on Commerce, Justice, Science, and Related
        Agencies, Committee on Appropriations, United States Senate (March 4, 2010)
    •   Inspector General’s Semiannual Reports to Congress (March 2009–September 2010)

 




OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                           33
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


    Appendix B: Comparison of FY 2011
    Challenges to FY 2012
FY 2012 Challenges                                        FY 2011 Challenges
1. Effectively Promote Exports, Stimulate                 5. Improving USPTO’s Patent Processing Times,
Economic Growth, and Create Jobsa                         Reducing Its Pendency and Backlogs, and
                                                          Mitigating Its Financial Vulnerabilities

                                                          6. Effectively Balancing NOAA’s Goals of
                                                          Protecting the Environment and Supporting the
                                                          Fishing Industry
2. Reduce Costs and Improve Operations to                 4. Enhancing Accountability and Transparency of
Optimize Resources for a Decade of                        the American Recovery and Reinvestment Act’s
Constrained Budgetsa                                      Key Technology and Construction Programs

                                                          8. Effectively Planning the 2020 Decennial

                                                          7. Protecting Against Cost Overruns and
                                                          Schedule Delays for the Commerce
                                                          Headquarters Renovation

3. Strengthen Department-Wide Information                 1. Strengthening Department-Wide Information
Security to Protect Critical Information                  Security
Systems and Data
4. Manage Acquisition and Contract                        3. Managing Acquisition and Contract
Operations More Effectively to Obtain Quality             Operations More Effectively to Obtain Quality
Goods and Services in a Manner Most                       Goods and Services at Reasonable Prices and on
Beneficial to Taxpayers                                   Schedule
5. Effectively Manage the Development and                 2. Effectively Managing the Development and
Acquisition of NOAA’s Environmental Satellite             Acquisition of NOAA’s Environmental Satellite
Systems to Avoid Launch Delays and Coverage               Programs
Gaps
a
  The FY 2012 challenge is cross-cutting and broad-based. The FY 2011 challenge was bureau-specific and could be
traced as a subset under the corresponding FY 2012 challenge.


     




    OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                                                         34
  DEPARTMENT OF COMMERCE
U.S.                                                 OFFICE OF INSPECTOR GENERAL


Appendix C: Management Response to OIG
Draft Report




(011200000129)



OFFICE OF THE SECRETARY: TOP MANAGEMENT CHALLENGES                           35
